Highlights
Table of Contents




                    Geo-Fence
                    Technology
                    in Delivery
Findings




                    Operations


                    Management
Recommendation




                    Advisory Report

                    Report Number
                    DR-MA-14-006

                    August 14, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                                    Background                                                          What the OIG Found
                                                                  The U.S. Postal Service is developing and pilot testing the         The Postal Service’s planned use of geo-fence technology in
                                                                  Delivery Management System to improve carrier efficiency            the delivery environment is a proactive way to increase carrier
                       The Postal Service’s planned               during street delivery. This system combines Global Positioning     visibility to aid street management.
                                                                  System data and other data from various systems to allow
                      use of geo-fence technology in
Findings




                                                                  supervisors to see “at a glance” the location of each carrier and   However, we identified an inaccuracy in the Delivery
                                                                  whether they are ahead of or behind their scheduled delivery        Management System. Specifically, projected scan times are
                       the delivery environment is a              time. These scheduled delivery times are based on each routes’      not adjusted for authorized route deviations when carriers
                          proactive way to increase               base evaluation and the associated Managed Service Point            are assigned deliveries on portions of additional routes. This
                                                                  scan times on each route.                                           occurs because the Postal Service has not updated the Delivery
                              carrier visibility to aid                                                                               Management System for these authorized route deviations.
                                                                  This system will also include geo-fence technology to assist        Management planned to address this scan variance issue
                               street management.                 supervisors in monitoring delivery operations. Geo-fence            in April 2014; but, as of June 2014, had not finalized the
Recommendation




                                                                  technology is a system based on the concept of virtual              adjustments.
                                                                  geographic zones. Should a carrier deviate from his or her
                          However, we identified an               designated geographic zone during street delivery, an alert is      Inaccurate scan variance data may cause supervisors to react
                                                                  sent to the supervisor in an email or text message. The             to carrier delays that are actually justified based on their daily
                          inaccuracy in the Delivery              geo-fence component of the pilot program was expected               delivery assignment.
                                                                  to begin in July 2014. There are seven planned test sites
                    Management System. Inaccurate
                                                                  consisting of one delivery unit in each of the seven Postal         What the OIG Recommended
                      scan variance data may cause                Service areas of operation.
                                                                                                                                      We recommended the vice president, Product Information,
                                                                                                                                      modify the Delivery Management System software to capture
                       supervisors to react to carrier            Our objective was to assess the Postal Service’s efforts to
                                                                                                                                      adjustments for time and location projections when carriers are
                                                                  implement geo-fence technology in delivery operations.
                     delays that are actually justified
Appendices




                                                                                                                                      assigned deliveries on more than one route prior to nationwide
                                                                                                                                      implementation of the Delivery Management System.
                                based on their daily
                               delivery assignment.
                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                               Print                                       1
Highlights
                    Transmittal Letter


                                                                  August 14, 2014			
Table of Contents




                                                                  MEMORANDUM FOR:	 ROBERT CINTRON
                                                                  				VICE PRESIDENT, PRODUCT INFORMATION

                                                                                                  E-Signed by Robert Batta
                                                                                                VERIFY authenticity with e-Sign



                                                                  				
                                                                  FROM: 			 Robert J. Batta
                                                                  				Deputy Assistant Inspector General
                                                                  				       for Mission Operations

                                                                  SUBJECT: 			                Management Advisory Report – Geo-Fence Technology
Findings




                                                                  				                        in Delivery Operations (Report Number DR-MA-14-006)

                                                                  This report presents the results of our review of Geo-Fence Technology in Delivery
                                                                  Operations (Project Number 14XG023DR000).

                                                                  We appreciate the cooperation and courtesies provided by your staff. If you have
                                                                  any questions or need additional information, please contact Rita F. Oliver, director,
                                                                  Delivery and Post Office Operations, or me at 703-248-2100.
Recommendation




                                                                  Attachment

                                                                  cc:	   Corporate Audit and Response Management
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                        Print              2
Highlights
                    Table of Contents

                                                                  Cover
                                                                  Highlights.......................................................................................................1
                                                                   Background.................................................................................................1
                                                                   What the OIG Found ..................................................................................1
Table of Contents




                                                                   What the OIG Recommended.....................................................................1
                                                                  Transmittal Letter...........................................................................................2
                                                                  Findings.........................................................................................................4
                                                                   Introduction.................................................................................................4
                                                                   Conclusion..................................................................................................5
                                                                   Geo-Fence Technology...............................................................................5
                                                                  Recommendation..........................................................................................7
                                                                   Management’s Comments..........................................................................7
                                                                   Evaluation of Management’s Comments....................................................7
Findings




                                                                  Appendices....................................................................................................8
                                                                   Appendix A: Additional Information.............................................................9
                                                                     Background .............................................................................................9
                                                                     Objective, Scope, and Methodology.........................................................9
                                                                     Prior Audit Coverage..............................................................................10
                                                                   Appendix B: Scan Data Flow to the Delivery Management System......... 11
Recommendation




                                                                   Appendix C: Management’s Comments...................................................12
                                                                  Contact Information.....................................................................................13
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                            Print                      3
Highlights
                    Findings                                      Introduction
                                                                  This report presents the results of our self-initiated review of Geo-Fence Technology1 in Delivery Operations
                                                                  (Project Number 14XG023DR000). Our objective was to assess the U.S. Postal Service’s efforts to implement geo-fence
                                                                  technology in delivery operations. See Appendix A for additional information about this review.

                                                                  The Postal Service is developing and pilot testing use of the Delivery Management System (DMS) to improve carrier efficiency for
                                                                  street delivery. This system will include geo-fence technology to assist supervisors in monitoring delivery operations. Geo-fence
                                                                  technology is a system based on the concept of virtual geographic zones. If a carrier deviates from their designated geographic
Table of Contents




                                                                  zone during street delivery, an alert is sent to the supervisor in an email or text message. The DMS will enable supervisors to see
                                                                  “at a glance” the location of each mail carrier and determine whether the carrier is ahead of or behind their scheduled delivery
                                                                  time. To accomplish this, the DMS will combine Global Positioning System (GPS) data gathered via handheld scanning devices
                                                                  with data from various existing systems2 (see Appendix B).

                                                                  The DMS will display an icon to indicate the location and timeliness of each carrier. As illustrated in Figure 1, a red circle indicates
                                                                  the carrier is more than 15 minutes behind schedule, a yellow square indicates the carrier is fewer than 15 minutes behind
                                                                  schedule, and a green diamond indicates the carrier is either on time or ahead of their scheduled delivery time. The accuracy of
                                                                  this information is paramount to enabling delivery supervisors to quickly determine which routes require attention (see Figure 1).

                                                                  Figure 1: Example of DMS
Findings




                                                                               Mail Carriers
                                                                                     “At a Glance”

                                                                    Hover your cursor over carriers for more information
                                                                            on how the DMS system works…
Recommendation




                                                                                                    The use of geo-fence
                                                                                           technology is a proactive approach to
                                                                                   increasing carrier visibility to aid street management.
                                                                                         However, the addition of route deviations
                                                                                      may cause inaccuracies, which in turn may cause
                                                                                      supervisors to react to delays that do not exist.
Appendices




                                                                  1	 The Postal Service expected the geo-fence phase of the pilot to begin in July 2014.
                                                                  2	 The DMS will combine data from GPS, the Delivery Operations Information System (DOIS), the Product Tracking System, the Address Management System (AMS), the
                                                                     Collection Point Management System, and the Time and Attendance Collection System.
                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                                                 Print                                              4
Highlights                                                        Conclusion
                                                                  The Postal Service’s planned use of geo-fence technology in the delivery environment is a proactive approach to increasing carrier
                                                                  visibility to aid street management. During our review, we identified an inaccuracy in DMS. Specifically, if a carrier is assigned
                                                                  deliveries in addition to the carrier’s primary route, a common practice known as “pivoting,”3 the Managed Service Point4 (MSP)
                                                                  scan variance data provided to DMS will be inaccurate. The inaccurate variance occurs because projected scan times are not
                                                                  adjusted for authorized route deviations recorded in the DOIS. Also, management has not updated the DMS to incorporate data
                              During our review, we               elements related to pivoting. Management planned to address the scan variance inaccuracy by April 2014; however, as of
                                                                  June 2014, they have not finalized the adjustments. Inaccurate scan variance data may cause supervisors to react to carrier
Table of Contents




                          identified an inaccuracy in             delays that are actually justified based on their daily delivery assignment.

                      DMS. Specifically, if a carrier is
                                                                  Geo-Fence Technology
                      assigned deliveries in addition             The Postal Service’s planned use of geo-fence technology will increase carrier visibility to aid supervisors in performing street
                                                                  management. Our analysis shows that MSP scan variances would be accurate on regular routes, but inaccurate when there are
                       to the carrier’s primary route,
                                                                  authorized route deviations. For example, supervisors often divide an unstaffed route among multiple carriers who each cover a
                          a common practice known                 part of the route in addition to their regular routes. This arrangement is used to augment the work of some carriers with less than
                                                                  8 hours of work on their routes.
                        as “pivoting,” the Managed
                                                                  For example:
                          Service Point (MSP) scan
                                                                  ■■ If management assigns a carrier a regular route5 (without pivoting), the DMS accurately reflects the MSP scan variances as
                      variance data provided to DMS
Findings




                                                                     illustrated in Table 1. The variance range of 8 minutes early to 15 minutes late would also be accurate.
                       will be inaccurate. Inaccurate
                                                                  ■■ If management assigns a carrier a 1-hour pivot on their route to accomplish prior to delivering to the primary route, the
                      scan variance data may cause                   primary route will appear to be 1 hour behind schedule for the remainder of the day. Likewise, the MSP scan variances will be
                                                                     inaccurate as they will be 1 hour behind, as shown in Table 1. The variance ranges in DMS will also be erroneous, showing
                       supervisors to react to carrier
                                                                     from 52 minutes to 1 hour and 15 minutes late.
                     delays that are actually justified
Recommendation




                        based on their daily delivery
                                      assignment.
Appendices




                                                                  3	 Pivoting is a management tool used as a part of normal delivery operations to allow supervisors to balance carrier workloads. Management stated they do not calculate the
                                                                     number of actual pivoting occurrences; therefore, we could not measure the extent of inaccuracies due to pivoting.
                                                                  4	 MSP is a designated location along a delivery route with an affixed barcode that a carrier is expected to scan. Management uses MSP scan times to help with supervising
                                                                     the performance on each route.
                                                                  5	 As of May 2, 2014, there were 140,903 city delivery routes nationwide.
                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                                                        Print                                               5
Highlights                                                        Table 1. Illustration of MSP Scan Variances With and Without a 1-Hour Pivot Added to Route6

                                                                                          Projected MSP
                                                                                          Scan Times:                 9:00 a.m.        11:00 a.m.            1:00 p.m.             3:00 p.m.
                                                                                          Actual MSP Scan             8:52 a.m.        11:02 a.m.            1:10 p.m.             3:15 p.m.
                                                                  Regular Route           Variance
                                                                                          (According to               -0:08            0:02                  0:10                  0:15
                                                                                          DMS)
                                                                                          Actual MSP Scan             9:52 a.m.        12:02 p.m.            2:10 p.m.             4:15 p.m.
Table of Contents




                                                                  With 1-Hour             Variance
                                                                  Pivot Added             (According to               0:52             1:02                  1:10                  1:15
                                                                                          DMS)
                                                                  U.S. Postal Service Office of Inspector General (OIG) analysis.


                                                                  The inaccurate scan variance took place because MSP projected scan times are not adjusted for authorized route deviations via
                                                                  pivoting in DOIS. Incorrect DOIS data will be uploaded to the DMS, causing the new system’s data to be inaccurate. This occurred
                                                                  because an adjustment to DMS has not been made to incorporate data elements related to pivoting. Inaccurate scan variance
                                                                  data may cause supervisors to react to carrier delays that are actually justified based on their daily delivery assignment.
                                                                  See Appendix B.

                                                                  The development plan for the DMS initially specified that management complete adjustments for authorized route deviations in
                                                                  April 2014; however, as of June 2014, management has not finalized the adjustments.7 AMS personnel who are developing the
Findings




                                                                  DMS will need to calculate adjusted times for assigned pivots from DOIS prior to the nationwide launch of DMS scheduled for
                                                                  July 2014.8
Recommendation
Appendices




                                                                  6	 This is a simulated route scenario that is not based on actual delivery data.
                                                                  7	 As of June 10, 2014.
                                                                  8	 The OIG plans to conduct a review of the geo-fence application after it has been fully developed and implemented.
                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                                                          Print   6
Highlights
                    Recommendation                                We recommend the vice president, Product Information:

                                                                  1.	 Modify the Delivery Management System (DMS) software to capture adjustments for time and location projections when
                                                                      carriers are assigned deliveries on more than one route prior to nationwide implementation of DMS.

                                                                  Management’s Comments
                                                                  Management agreed with the finding and recommendation.
                       We recommend management
Table of Contents




                                                                  Management agreed to modify the DMS software to capture adjustments for time and location projections when carriers are
                       modify Delivery Management                 assigned deliveries on more than one route. Management noted they were aware of the need to make adjustments prior to the
                                                                  OIG review. The target implementation date is September 30, 2014.
                         System software to capture
                           adjustments for time and               See Appendix C for management’s comments, in their entirety.

                          location projections when               Evaluation of Management’s Comments
                     carriers are assigned deliveries             The OIG considers management’s comments responsive to the recommendation in the report.

                            on more than one route.               In a March 2014 presentation, management stated they would modify the DMS for pivoting by April 2014, prior to the DMS
                                                                  nationwide launch. We discussed the modification for pivoting in the DMS and the completion status with management on
                                                                  June 5, 2014. Management stated they were aware of the issue prior to the OIG review and are making enhancements. The OIG
Findings




                                                                  acknowledged management’s awareness of the issue and their enhancement plans; however, as of August 2014, the adjustments
                                                                  were not final. Management’s comments stated they would finalize the adjustments by September 30, 2014.

                                                                  The OIG considers the recommendation significant, and therefore requires OIG concurrence before closure. Consequently, the
                                                                  OIG requests written confirmation when corrective action is completed for the recommendation. This recommendation should not
                                                                  be closed in the Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendation
                                                                  can be closed.
Recommendation
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                          Print                                     7
Highlights
                    Appendices
                                                                  Appendix A: Additional Information.............................................................9
                                                                   Background .............................................................................................9
                                                                   Objective, Scope, and Methodology.........................................................9
                                                                   Prior Audit Coverage..............................................................................10
                          Click on the appendix title
                                                                  Appendix B: Scan Data Flow to the Delivery Management System......... 11
Table of Contents




                       to the right to navigate to the            Appendix C: Management’s Comments...................................................12
                                   section content.
Findings
Recommendation
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                     Print                     8
Highlights          Appendix A: Additional                        Background
                    Information                                   As the Postal Service strives to reduce delivery carriers’ workhours to match reduced mail volume, officials continue to explore
                                                                  new management tools and technology to improve carrier efficiency during street delivery. As part of this effort, many carriers
                                                                  are assigned portions of multiple routes. Pivoting carriers to portions of additional routes can be an extra challenge for delivery
                                                                  supervisors, who must determine where each carrier should be throughout the day and when to expect the carrier to return to the
                                                                  delivery unit.

                                                                  Postal Service managers are currently pilot testing (see Table 2) the DMS to improve carrier efficiency during street delivery. This
Table of Contents




                                                                  system will combine GPS data with data from various systems to allow supervisors to see “at a glance” the location of each carrier
                                                                  and whether the carrier is ahead of or behind their scheduled delivery times. The Postal Service will include geo-fence technology
                                                                  as part of the DMS, which will assist supervisors in monitoring carriers deviations from designated zones or locations during
                                                                  street delivery.

                                                                  Table 2. FY 2014 Test Sites for Delivery Management System

                                                                  Area                     District               Office                  ZIP Code
                                                                  Capital Metro            Mid-Carolinas          Charlotte               28215
                                                                  Eastern                  Western PA             Pittsburgh              15237
                                                                  Great Lakes              Central Illinois       Downers Grove           60515
                                                                  Northeast                Northern New England   Nashua Main             03060
Findings




                                                                  Pacific                  Sacramento             Sacramento Arden        95825
                                                                  Southern                 Rio Grande             San Antonio             78217
                                                                  Western                  Arizona                Scottsdale              85251
                                                                  Source: AMS officials.



                                                                  Objective, Scope, and Methodology
                                                                  The objective of this review was to assess the Postal Service’s efforts to implement geo-fence technology in delivery operations.
Recommendation




                                                                  To accomplish our objective, we:

                                                                  ■■ Reviewed Postal Service documentation, including applicable policies and procedures, related to geo-fence technology in
                                                                     delivery operations. We also reviewed prior OIG and U.S. Government Accountability Office audit reports related to geo-fence
                                                                     technology use in delivery operations.

                                                                  ■■ Interviewed appropriate delivery operations managers and personnel at the headquarters and area levels responsible for the
                                                                     use of geo-fence technology in delivery operations to discuss implementation, status, and results.

                                                                  We conducted this review from January through August 2014, in accordance with the Council of the Inspectors General on
                                                                  Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
Appendices




                                                                  management on June 5, 2014, and included their comments where appropriate.

                                                                  We did not assess the reliability of any computer-generated data for the purposes of this report.


                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                             Print                                      9
Highlights                                                        Prior Audit Coverage
                                                                                                                         Final Report           Monetary
                                                                  Report Title                     Report Number             Date                Impact
                                                                  Delivery Data Transmission         DR-MA-13-003              8/6/2013              None
                                                                  Report Results: Our report found during the scanning technology project a data
                                                                  transmission problem occurred that required action. While the Postal Service deployed
                                                                  cell phones for carriers to use in conjunction with Intelligent Mail Device (IMD) scanners to
                                                                  provide wireless transmission of data, it was unable to transmit all package delivery data
                                                                  collected by carriers because phones were not always paired with a scanner. Without
Table of Contents




                                                                  this connectivity capability, the Postal Service could be at a competitive disadvantage
                                                                  which could adversely impact its brand. We recommended that management issue
                                                                  guidance on conducting a refresher stand-up talk to carriers showing how to connect
                                                                  cell phones and IMDs scanners and noting the importance of the connection, ensure
                                                                  that an onscreen connectivity indicator is installed on either carrier cell phones or IMD
                                                                  scanners, and modify the Intelligent Mail Device Acquisition System report for delivery
                                                                  unit management to provide unit- and route-specific information on cell phones and IMD
                                                                  scanner connectivity. Management agreed with the findings and recommendations.
                                                                  Global Positioning System:
                                                                  End-to-End Platform and
                                                                  Actionable, Robust Reports          DR-MA-11-003            9/30/2011              None
                                                                  Needed to Achieve Goals
                                                                  and Potential Return-on-
                                                                  Investment
                                                                  Report Results: Our report found that in delivery operations, management uses
Findings




                                                                  standard GPS reports from the vendor (rather than customized reports) and districts did
                                                                  not consistently use exception data from the reports to manage operations. The existing
                                                                  GPS for delivery vehicles has helped in street management and anecdotally curtailed
                                                                  negative behavior, as well as provided a basis for return on investment. The
                                                                  Postal Service could develop an end-to-end, single-sourced GPS platform and
                                                                  back-office accountability for the entire fleet of vehicles and trucks with a focus on
                                                                  taking costs out of the delivery and transportation system. We recommended that
                                                                  management maximize existing GPS functions, create internal best practices for the
                                                                  existing GPS, explore an end-to-end GPS platform that includes full-range functionality
                                                                  and reports for Postal Service vehicles, and establish a cross-functional team of Postal
Recommendation




                                                                  Service managers to review existing barcode and scanning systems as well other related
                                                                  tracking and scanning opportunities. Management generally agreed with the findings and
                                                                  recommendations.
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                                                  Print   10
Highlights          Appendix B:
                    Scan Data Flow to the
                    Delivery Management
                    System
Table of Contents
Findings




                                                                  Source: OIG analysis.
Recommendation
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                          Print   11
Highlights          Appendix C:
                    Management’s Comments
Table of Contents
Findings
Recommendation
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                  Print   12
Highlights
Table of Contents
Findings




                                                                     Contact us via our Hotline and FOIA forms, follow us on social
                                                                  networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                         or abuse. Stay informed.

                                                                                        1735 North Lynn Street
Recommendation




                                                                                       Arlington, VA 22209-2020
                                                                                             (703) 248-2100
Appendices




                    Geo-Fence Technology in Delivery Operations
                    Report Number DR-MA-14-006
                                                                                                                                           Print   13
